           SEMIANNUAL
           REPORT

           October 1, 2011 –
           March 31, 2012




May 2012                   OIG-12-4
                                                United States Government Accountability Office


Memorandum
Date:         May 24, 2012

To:           Comptroller General Gene L. Dodaro

From:         Inspector General Frances Garcia

Subject:      Semiannual Report—October 1, 2011, through March 31, 2012


In accordance with Section 5 of the Government Accountability Office Act of 2008
(GAO Act), I am pleased to submit the Office of the Inspector General (OIG) semiannual
report for the 6-month period ending March 31, 2012, for your comments and its
transmission to the Congress.

During this period, we have continued in our efforts to meet our statutory mandate to
promote economy, efficiency, and effectiveness at GAO. For example, the OIG continued to
provide reasonable assurance that our quality control framework of policies and procedures
related to generally accepted government auditing standards and the Council of the
Inspectors General on Integrity and Efficiency (CIGIE) standards are suitably designed and
operating effectively. Further, the OIG completed an internal inspection of the OIG’s system
of quality control for the work completed during the fiscal year that ended September 30,
2010. In addition, we completed a review of the closed investigations case files for fiscal
years 2010 and 2011 in an effort to determine the level of conformity with the standards
adopted in the Council of the Inspectors General on Integrity and Efficiency Quality
Standards for Investigations.1 The results of the internal inspection and review concluded
that, for the periods indicated, the OIG generally complied with prescribed quality standards
for audit, inspection, and investigative work performed during fiscal years 2010 and 2011.

We have continued our efforts to strengthen our quality control system through a number of
actions taken or in progress in response to recommendations resulting from the internal
inspection and review. Due to the increasing number and nature of complaints, we hired a
criminal investigator to fill a new Assistant Inspector General for Investigations (AIGI)
position. The AIGI is responsible for overseeing the OIG hotline complaint process and
independently planning and conducting investigations of allegations of fraud, abuse, and
other deficiencies relating to GAO. In addition, the AIGI is responsible for continuing our
efforts to strengthen our system of quality control for investigations. Actions planned and
taken by the AIGI regarding OIG hotline and investigative functions include reviewing and
revising the policies and procedures manual for investigations to help ensure compliance
with applicable CIGIE standards; establishing investigative and case-specific goals,




1
 The Quality Standards for Investigations contain three general standards (qualification,
independence, and due professional care) and four qualitative standards (planning, execution,
reporting, and information management).


                                                                      OIG-12-4 Semiannual Report
objectives, and priorities; and exploring shared services options for implementing an
automated case management system for records and evidence management.

Activities of the Office of the Inspector General
Audits

On March 30, 2012, the OIG reported on GAO’s voluntary compliance with the Federal
Information Security Management Act of 2002 and other federal security requirements. 2 The
Federal Information Security Management Act of 2002 (FISMA) requires that each federal
agency in the executive branch establish an agencywide information security management
program for the information systems that support the agency’s operations and assets. GAO
is not obligated by law to comply with FISMA or executive branch information policies but
has adopted them to help ensure physical and information system security. Our evaluation
showed that GAO has established an overall information security program that is generally
consistent with the requirements of FISMA, Office of Management and Budget implementing
guidance, and standards and guidance issued by the National Institute of Standards and
Technology. However, using FISMA reporting metrics for federal inspectors general, we
identified opportunities to improve specific elements of this program that concern

    •    addressing information security risk from an overall agency perspective through a
         comprehensive governance structure and organization-wide risk management
         strategy,

    •    remediating security weaknesses identified for agency information systems in a
         timely manner,

    •    building out GAO’s Alternative Computing Facility to fully support the agency’s
         mission-essential functions in the event of an emergency or disaster, and

    •    developing accurate statistics for employees and contractors completing annual
         security awareness and role-based training.

We recommended that GAO (1) establish a comprehensive governance structure and
organization-wide risk management strategy for the security of its information systems; (2)
enhance accountability for, and management of, the agency’s information security
weakness remediation process; (3) provide senior management with adequate information
to consider and prioritize building out the capabilities of the agency’s Alternative Computing
Facility; and (4) develop and implement procedures for capturing data that accurately reflect
agency compliance with security training requirements as of the end of each fiscal year.
GAO concurred with these recommendations. Actions taken in response to the
recommendations are expected to be reported to the OIG within 60 days of the report
issuance date.

In addition, we updated our audit risk assessment of GAO programs and operations to aid in
our development of risk-based audit work plan for fiscal year 2012. Based on the risk
assessment and our work plan, we have ongoing work involving hiring and retention



2
 GAO, Office of the Inspector General, Information Security: Evaluation of GAO’s Program and
Practices for Fiscal Year 2011, OIG-12-2 (Washington, D.C.: Mar. 30, 2012).




Page 2                                                               OIG-12-4 Semiannual Report
incentives and Contracting Officer Representative training. 3 We also participated in the
activities of the broader inspector general community, including the CIGIE and the quarterly
meetings of the Legislative Branch Inspectors General. 4

Investigations

For this reporting period, the OIG received, reviewed, and investigated complaints or
information concerning the possible existence of activities constituting a violation of any law,
rule, regulation, or mismanagement or gross waste of funds. The OIG’s hotline continues to
be our primary source of complaints or information for identifying suspected fraud and other
serious problems, abuses, and deficiencies relating to the administration of GAO’s programs
and operations. 5 Of the complaints received, some resulted in the opening of investigations;
others were referred to GAO offices, units, or other law enforcement offices for
consideration; and some were closed and not accepted for investigation or referral.

As shown in table 1, we had a total of 191 hotline complaints during this 6-month reporting
period—189 received during the period and 2 that were open at the start of the period. Eight
complaints were closed with a referral to the appropriate GAO office because they involved
matters such as personnel or security. Sixty-four complaints were closed with a referral to
FraudNet 6 because they involved matters related to the receipt, disbursement, and use of
public money outside of GAO. Seventy one were closed due to insufficient factual
information that would warrant further investigation; 16 others were closed with a referral to
the appropriate agency Office of the Inspector General or law enforcement offices because
they concerned matters related to other federal agencies programs, operations, or
employees. Regarding the 10 other complaints, we converted them to full investigations. At
the end of the reporting period, 22 complaints remained open.




3
 While our engagements are generally focused on areas identified in our work plan, adjustments to
our work plan are made, as needed, in an effort to ensure we are in tune with changing conditions or
emerging issues and are able to respond appropriately.
4
 The six legislative branch IGs are (1) the Government Accountability Office, (2) the Architect of the
Capitol, (3) the Government Printing Office, (4) the Library of Congress, (5) the Capitol Police, and (6)
the House of Representatives.
5
 OIG has a toll-free Hotline number that is staffed by a contractor 24 hours a day, 7 days a week. The
toll-free number is (866) 680-7963.
6
  FraudNet is a governmentwide hotline operated by GAO staff that receives complaints of fraud,
waste, and abuse of federal funds.




Page 3                                                                   OIG-12-4 Semiannual Report
                                                                                                   a
Table 1: Summary OIG Hotline Complaint Activities, October 1, 2011, through March 31, 2012

 Complaints open at start of this reporting period                                                     2
 New complaints received this reporting period                                                   189
 Total complaints                                                                                191
 Disposition of Complaints Received
 Complaints closed (referred to other units within GAO)                                                8
 Complaints closed (referred to FraudNet)                                                         64
 Complaints closed (insufficient information/no basis)                                            71
 Complaints closed (no jurisdiction and referred to appropriate                                   16
 agency OIG or other law enforcement offices)
 Complaints closed (converted to full investigations)                                             10
 Total complaints still open at the end of the reporting period                                   22
Source: OIG.
a
 Complaints include inquiries and allegations received by the OIG.


As shown in table 2, we had 12 investigations initiated during the reporting period, 2 of
which were open at the start of this 6-month reporting period; the remaining 10 were initiated
during the report period and included allegations related to possible contract fraud and
possible travel and telework policy violations. Six of the investigations were closed due to
insufficient factual information or referred to the appropriate GAO office for review and
action. At the end of the reporting period, 6 cases remained opened, one of which is a joint
investigation being led by the Federal Bureau of Investigation.


Table 2: Summary of OIG Investigative Activities, October 1, 2011, through March 31, 2012
    Investigations open at the start of this reporting period                                     2
    Investigations initiated during this reporting period                                        10
    Total investigations                                                                         12
    Investigations closed this reporting period (no basis or referred to
    other GAO units for review and action)                                                        6
    Total investigations open at the end of this reporting period                                 6
Source: OIG.



Other Activities

In addition to our audit and investigative activities, the OIG was involved in a number of
outreach and liaison activities, including oversight of the Commission on Civil Rights, active
participation in the community of federal inspectors general, monitoring GAO’s management
challenges, and tracking the status of open recommendations to GAO for corrective actions
to address identified problems. Following are highlights of these activities.




Page 4                                                                     OIG-12-4 Semiannual Report
OIG Commission on Civil Rights Oversight

During this reporting period, we performed the duties and responsibilities of the IG of the
United States Commission on Civil Rights (Commission). The Commission’s IG was created
by the Consolidated and Further Continuing Appropriations Act of 2012. 7 The duties,
responsibilities, and authorities of the Commission’s Inspector General are specified in the
Inspector General Act of 1978, as amended. 8 The act further designated that the IG of GAO
also holds the position of IG of the Commission and directed that personnel of GAO’s OIG
be utilized to perform the duties of the Inspector General for the Commission. The IG shall
conduct audits and investigations relating to programs and operations administered or
financed by the Commission and keep the Commissioners and the Congress fully informed
concerning fraud or other serious problems, abuses, and deficiencies identified.

Council of the Inspectors General on Integrity and Efficiency and Legislative Branch
Inspectors General

During this 6-month reporting period, the OIG participated in the activities of the broader
inspector general community. For example, the OIG served as a member of the Council of
the Inspectors General on Integrity and Efficiency (Council), as provided under the Inspector
General Reform Act of 2008. 9 As a member, the OIG participated in the plans, programs,
and projects of the Council and adhered to professional standards established by the
Council. The OIG also participated in the Legislative Branch Inspectors General quarterly
meetings.

Inspector General’s View of GAO’s Management Challenges

For this reporting period, we completed a review of GAO’s assessment of its management
challenges before publication of GAO’s fiscal year 2011 Performance and Accountability
Report. 10 The Inspector General cited this assessment in an October 27, 2011,
memorandum to the Comptroller General, which was published in GAO’s fiscal year 2011
performance report. In our memorandum, we agreed with management’s assessment and
decision to remove physical security and information security and to retain human capital
management as management challenges for fiscal year 2011. The OIG agreed that while
improvements have been made in GAO’s human capital management, this area continues
to present a management challenge for the agency as it strives to maintain an agile and
effective workforce. In 2011, GAO identified “engagement efficiency” as a new management
challenge in recognition of its need to find ways to improve its efficiency in producing quality
work in support of the Congress within a declining resource environment. We concurred with
GAO’s decision to recognize the importance of these efforts by designating engagement
efficiency as a management challenge.




7
Pub. L. No. 122-55. 125 Stat. 552, 628 (Nov. 18, 2011).
8
Pub. L. No. 95-452, 92 Stat. 1101 (Oct. 12, 1978), codified as amended at 5 U.S.C. App.
9
5 U.S.C. App. § 11 (b) (1) (I).
10
 GAO, Performance and Accountability Report—Fiscal Year 2011, GAO-12-4SP (Washington, D.C.:
Nov. 15, 2011).




Page 5                                                               OIG-12-4 Semiannual Report
GAO Actions on Recommendations Made in Prior OIG Reports

Timely resolution of outstanding audit recommendations continues to be a priority for both
our office and the agency. During the semiannual reporting period, we tracked the overall
status of all reports and recommendations issued by the OIG, and actions planned and
taken by GAO in response to OIG recommendations. For this reporting period, GAO
undertook or continued actions to respond to 15 recommendations in six previous OIG
reports. For the purposes of this report, a recommendation is considered open when an
action (1) has not been taken but may be taken, (2) is in the planning stage, or (3) has been
taken on only part of the recommendation. In addition, a recommendation is considered
implemented and closed when an action has been taken that essentially meets the
recommendation’s intent. Table 3 provides a brief summary of the recommendations.

Table 3: Agency Actions on Recommendations Made in Prior OIG Reports, October 1, 2011,
through March 31, 2012
                                                             Status of actions planned and
OIG audit and other                                          taken by GAO in response to the
reports                 Recommendation                       recommendation
Suspension and          1. Consider developing and           Recommendation closed
debarment procedures    adopting suspension and              GAO implemented the
(Sept. 30, 2010)        debarment procedures.                recommendation. A policy statement
                                                             was published in the Federal Register
                                                             on February 13, 2012, 77 F.R. 7579-
                                                             81, effective immediately.
Information Security:   2. Incorporate procedures within its Recommendation closed
Evaluation of GAO’s     annual systems inventory process     GAO implemented the
Program and Practices   that require inventory changes to be recommendations.
for Fiscal Year 2010,   documented and formally approved GAO established a process to
OIG-11-3                by the Chief Information Officer and document and formally approve
(Mar. 4, 2011)          that system interfaces be identified inventory changes.
                        between GAO systems and those
                        operated by other agencies and
                        contractors.

                        3. Identify and pursue additional     Recommendation closed
                        options for obtaining assurances      GAO completed a security
                        that certain contractor systems       assessment of certain contractor
                        meet federal information security     systems to ensure the systems met
                        requirements.                         federal information security
                                                              requirements.

                        4. Continue efforts to complete and   Recommendation closed
                        document required information         GAO completed and documented
                        security processes and procedures     required information security
                        for all GAO-operated systems.         processes and procedures for all
                                                              GAO operated systems.

                        5. Proceed with plans to establish    Recommendation closed
                        a security configuration scanning     GAO scanned computers for
                        capability for GAO notebook           compliance with security
                        computers and workstations.           configuration.

                        6. Incorporate changes to the         Recommendation closed
                        configuration management              GAO incorporated changes that
                        process that remediate specific       addressed specific open
                        open configuration-related            configuration-related vulnerabilities.
                        vulnerabilities.




Page 6                                                                OIG-12-4 Semiannual Report
                                                                 Status of actions planned and
OIG audit and other                                              taken by GAO in response to the
reports                      Recommendation                      recommendation
                             7. Ensure that access to annual     Recommendation closed
                             role-based information security     GAO implemented new mandatory
                             training or its equivalent is       role-based training for all contractors
                             provided for all contractor staff   with significant information security
                             required to take this training.     responsibilities.
GAO management               8. Re-examine management            Recommendation closed
challenges and               challenges to determine whether     GAO implemented the
performance measures         (1) significant actions had been    recommendation. GAO’s assessment
(Oct. 28, 2010)              taken in the areas of physical      led to a decision to remove physical
                             security, information security, or  security and information security and
                             human capital to justify removal of to retain human capital management
                             any of these management             as management challenges for fiscal
                             challenges and (2) other risks have year 2011. GAO identified
                             emerged that may warrant            “engagement efficiency” as a new
                             designation as GAO management management challenge in recognition
                             challenges.                         of its need to find ways to improve its
                                                                 efficiency in producing quality work in
                                                                 support of the Congress within a
                                                                 declining resource environment.
Information Security:        9-10. Continue efforts to implement Recommendations open
Evaluation of GAO’s          additional requirements for the     GAO plans to implement additional
Information Security         agency’s privacy program.           requirements after a privacy rule and
Program and Practices                                            order are finalized.
for Fiscal Year 2009,
OIG-10-3 (Jan. 4, 2010)
Matter for management        11. Consider the desirability and       Recommendation open
consideration regarding      feasibility of expanding oversight of   GAO plans to provide documentation
Tiny Findings Inc.           Tiny Findings Inc. in a manner          of agreements and new
(Mar. 24, 2011)              similar to the oversight provided by    memorandums of agreement. GAO
                             the General Services                    also plans to provide an update on
                             Administration for child-care           efforts to be accredited by the
                             facilities in other federal office      National Association for the
                             buildings.                              Education of Young Children.
Internal controls            12-15. Improve monitoring of the        Recommendation closed
regarding telework,          telework program.                       GAO developed and implemented
official duty station, and                                           procedures to monitor transit benefits.
transit benefits
(July 18, 2011)                                                      Recommendations open
                                                                     GAO developed and implemented a
                                                                     telework communications strategy to
                                                                     explain and/or remind staff of the
                                                                     telework policy and available program
                                                                     resources. On January 31, 2012,
                                                                     GAO published in GAO Notices an
                                                                     announcement of a proposed change
                                                                     regarding its telework order. The
                                                                     period for comments by GAO
                                                                     employees closed on March 2, 2012.
Source: OIG.




Page 7                                                                       OIG-12-4 Semiannual Report
I provided GAO with a draft of this report for review and comment. The agency provided
technical comments that we incorporated, as appropriate.

I want to thank GAO’s Executive Committee, managers, and staff for their cooperation
during our reviews. The OIG’s team of dedicated professionals remains committed to
helping GAO improve the services it provides American taxpayers; the accomplishments
reported in this letter are the direct results of their efforts.

cc: Patricia A. Dalton, Chief Operating Officer, GAO
    Lynn H. Gibson, General Counsel, GAO
    David M. Fisher, Chief Administrative Officer/Chief Financial Officer, GAO
    GAO’s Audit Advisory Committee




(999818)




Page 8                                                           OIG-12-4 Semiannual Report
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Online at https://oig.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548

                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.
